                                   Office of the Inspector General
                   United States Government Accountability Office


GAO/OIG

August 2009
               FOUR PEOPLE
               PERFORMANCE
               MEASURES

               Many Attributes of
               Successful Measures
               Met; Opportunities
               Exist for Further
               Enhancements




GAO/OIG-09-3
August 2009



 FOUR PEOPLE PERFORMANCE MEASURES
 Many Attributes of Successful Measures Met;
 Opportunities Exist for Further Enhancements

 Objectives: As part of the Office of Inspector General’s (OIG) commitment to
 periodically review the reliability and validity of GAO’s performance measures, OIG
 evaluated four of the agency’s people measures—staff development, staff
 utilization, leadership, and organizational climate. OIG based its evaluation largely
 on an assessment of whether these measures met nine specific attributes that
 earlier GAO work cited as key to successful performance measures.
 Findings: OIG’s evaluation showed that, for fiscal year 2007, GAO accurately
 calculated the four performance measures reviewed. Of the nine attributes of
 successful performance measures identified by previous GAO work, staff utilization
 and organizational climate met all of the attributes, and staff development and
 leadership met many of the attributes. All four measures’ scores are derived from
 GAO’s Employee Feedback Survey.
 For the staff development and leadership measures, OIG found that GAO had not
 fully disclosed in its annual performance report that (1) it calculates these scores by
 excluding survey respondents that answered “no basis to judge/not applicable” (no
 basis/NA) and (2) the exclusion of these respondents has the effect of changing the
 two measures’ scores. A more complete interpretation of the scores would be
 possible with additional disclosures in the report’s tables.
 In addition, the score for the leadership measure was significantly affected by the
 large number of no basis/NA respondents for one of its 10 questions. In fiscal year
 2007, 45 percent of surveyed respondents answered no basis/NA to the question
 about supervisors’ effectiveness in handling equal employment opportunity (EEO)
 and discrimination issues. GAO officials stated this large number most likely
 reflects the relatively few formal discrimination cases and the safeguarding of
 private information related to these cases. GAO’s employee survey has recently
 added other questions on diversity that could provide more useful information and
 do not have large numbers of no basis/NA respondents.
 Further, although GAO’s leadership measure captures information about
 employees’ satisfaction with their immediate supervisors, it does not include the
 employees’ survey responses about satisfaction with the strategic leadership of
 GAO. As a result, the measure’s name differs from what is being measured.
 Finally, GAO was not timely in reporting changes made to its staff development
 measure that resulted in performance data no longer being comparable. In response
 to OIG’s work, GAO made this disclosure in its fiscal year 2008 annual performance
 report. However, the agency does not have written procedures that would help
 ensure the timely reporting of future changes to measures.
 Recommendations: OIG recommends that GAO take the following four actions:
 • Disclose in its annual performance report’s tables that the four measures’
    scores are calculated by excluding no basis/NA respondents and that this
    approach, when the number of these respondents is large, has the effect of
    changing the scores for two measures.
 • Determine for the leadership measure whether the current EEO and
    discrimination question should be retained or replaced.
 • Consider (1) a more descriptive name for the leadership measure or (2)
    incorporating survey results about GAO’s strategic leadership.
 • Develop written procedures to ensure changes made to measures and any
    effects on performance data comparability are promptly reported.


                                       GAO/OIG-09-3 Four GAO Performance Measures
Memorandum
Date:            August 31, 2009

To:              Acting Comptroller General – Gene L. Dodaro


From:            Inspector General – Frances Garcia
Subject:         Four People Performance Measures: Many Attributes of Successful Measures
                 Met; Opportunities Exist for Further Enhancements


GAO relies on a talented, multidisciplinary workforce to deliver accurate, high-quality
results and fulfill its mission of helping Congress improve the performance and ensure
the accountability of the federal government. Salaries and benefits for this workforce
represent a significant investment—almost 80 percent of GAO’s budget. In addition,
recent retirements and changing demographics in the agency are creating a younger, less
experienced workforce, as well as giving rise to knowledge and skill gaps at the middle
management and senior levels. For such reasons, GAO continues to identify human
capital as one of its most important management challenges and has committed to
creating better and more comprehensive performance measures to improve its human
capital management.

Congress enacted the Government Performance and Results Act of 1993 (GPRA) to help
resolve the long-standing management problems that undermined the federal
government’s efficiency and effectiveness and to provide greater accountability for
        1
results. GPRA requires federal agencies to develop strategic plans with long-term,
outcome-oriented goals and objectives, annual goals linked to the long-term goals, and
annual reports on the results achieved. As a legislative branch agency, GAO is not
required to comply with GPRA, but generally does follow the intent of this law. GAO uses
a strategic planning and management process based on strategic goals and objectives, as
well as performance goals identified for the agency. One of its strategic goals—
maximizing the value of GAO by being a model federal agency and world-class
professional services organization—addresses human capital management. To monitor
how well the agency is managing its human capital, GAO has developed eight “people
measures” and, similar to executive branch agencies, reports their results as part of its
annual Performance and Accountability Report.



1
    GPRA, Pub. L. No. 103-62.


                                                GAO/OIG-09-3 Four GAO Performance Measures
As part of our commitment to periodically review the reliability and validity of GAO’s
performance measures, we evaluated four of the agency’s people measures—staff
development, staff utilization, leadership, and organizational climate. 2 We based our
evaluation largely on an assessment of whether these measures met nine specific
attributes that earlier GAO work cited as key to successful performance measures. Table
1 is a summary of the nine attributes, including the potentially adverse consequences if
                  3
they are not met.

Table 1: Nine Key Attributes of Successful Performance Measures

                                                                             Potentially adverse consequences of not
    Attribute              Definition                                        meeting attribute
    1. Linkage             Measure is aligned with division and              Behaviors and incentives created by
                           agencywide goals and mission and clearly          measure do not support achieving division or
                           communicated throughout the organization.         agencywide goals or mission.
    2. Clarity             Measure is clearly stated and the name and        Data could be confusing and misleading to
                           definition are consistent with the methodology    users.
                           used to calculate it.
    3. Measurable target   Measure has a numerical goal.                     Cannot tell whether performance is meeting
                                                                             expectations.
    4. Objectivity         Measure is reasonably free from significant       Performance assessments may be
                           bias or manipulation.                             systematically over- or understated.
    5. Reliability         Measure produces the same result under            Reported performance data is inconsistent
                           similar conditions.                               and adds uncertainty.
    6. Core program        Measures cover the activities that an entity is   Not enough information is available in core
       activities          expected to perform to support the intent of      program areas to managers and
                           the program.                                      stakeholders.
    7. Limited overlap     Measures should provide new information           Manager may have to sort through
                           beyond that provided by other measures.           redundant, costly information that does not
                                                                             add value.
    8. Balance             Balance exists when a suite of measures           Lack of balance could create skewed
                           ensures an organization’s various priorities      incentives when measures over-emphasize
                           are covered.                                      some goals.
    9. Governmentwide      Each measure should cover a priority, such as     A program’s overall success is at risk if all
       priorities          quality, timeliness, and cost of service.         priorities are not addressed.
Source: GAO.



For our assessment, we reviewed prior GAO reports and guidance regarding government
agencies’ performance measures and spoke with GAO experts and an external expert on
developing performance measures and using performance information. We interviewed
GAO staff to determine how they used performance information and to identify agency
practices that may facilitate or hinder the use of these measures. We also reviewed
relevant standard operating procedures and internal controls for developing and publicly

2
  We reported the results of our evaluation of GAO’s other four people measures in our August 5, 2008,
report, Fiscal Year 2007 New Hire, Acceptance, and Retention Rates Performance Measures Need
Improvement and Alternative Measures Should be Considered.
3
  GAO, Tax Administration: IRS Needs to Further Refine Its Tax Filing Season Performance Measures,
GAO 03-143 (Washington, D.C.: Nov. 22, 2002).


Page 2                                               GAO/OIG-09-3 Four GAO Performance Measures
reporting these measures. In addition, for the annual Employee Feedback Survey that
provides data regarding staff satisfaction with these measures, we consulted with GAO
survey design methodologists to understand how the survey was created and related
issues of survey design. To assess the accuracy and method of calculation for data
reported in GAO’s Performance and Accountability Report for fiscal year 2007, 4 we
analyzed survey data for questions pertaining to these four people measures. We
conducted this performance audit from August 2008 to August 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Results in Brief

Our evaluation showed that performance scores for the staff development, staff
utilization, leadership, and organizational climate people measures were accurately
calculated according to GAO’s established methodology and that these measures met
many of the nine attributes of successful performance measures. For example, staff
utilization and organizational climate met all nine attributes. In addition, all four
measures met the linkage, measurable target, core program activities, limited overlap,
balance, and governmentwide priority. All attributes are not equal and failure to have a
particular attribute does not necessarily indicate that there is a weakness in that area or
that the measure is not useful; rather, it indicates an opportunity for further refinement.

Two measures—leadership and staff development—did not fully meet all of the
attributes. Specifically:

Clarity attribute. We found that the leadership measure does not fully meet this
attribute because it provides information about employees’ opinions about their
immediate supervisors and captures information on the agency’s top managers–who set
agency’s policies, priorities, and goals–only in their role as supervisors. The clarity
attribute requires a measure’s name and definition to be consistent with the methodology
used to calculate it. GAO has several options to better meet this attribute. For example,
the agency could adopt a more descriptive name reflecting that the measure is based on
opinions about immediate supervisors. Another option would involve the agency revising
its leadership measure to include employee survey results regarding GAO’s Executive
Committee, team management leadership, or both. GAO’s Chief Human Capital Officer
noted that it is common in both the public and private sectors to include information
about senior leadership as part of a leadership measure.

Objectivity attribute. Our evaluation also showed that the leadership and staff
development measures could better meet this attribute with more disclosure about their
performance scores in GAO’s annual performance reports. Greater disclosure would help

4
 GAO, Performance and Accountability Report: Fiscal Year 2007, GAO-08-1SP (Washington, D.C.: Nov.
15, 2007).


Page 3                                         GAO/OIG-09-3 Four GAO Performance Measures
assure that GAO is meeting the objectivity attribute requirement that performance
assessments are not misinterpreted as over- or understated. Agency performance scores
generally constitute the percentage of survey respondents that chose two favorable
responses (such as strongly agree and generally agree) on a five-point scale. GAO has
reported that it calculates these scores by excluding respondents that answered “no
basis to judge/not applicable” (hereafter referred to as no basis/NA respondents) in its
detailed description of these measures, but not in tables presenting the actual
performance scores. GAO has made such disclosures in tables presenting performance
scores in its own audit and evaluation reports. 5 The disclosure in table notes is
particularly important, for example, because GAO has used these tables to report on its
performance in its annual testimonies before its appropriations subcommittees. In
addition, GAO has not disclosed in its annual performance reports that its approach of
excluding no basis/NA respondents has the effect of changing the leadership and staff
development measures’ scores, by 6 percentage points and 13 percentage points,
respectively. According to our technical advisers, such disclosure is needed to provide a
complete interpretation of the scores and for transparency. This disclosure is important
when questions constituting a measure have relatively large numbers of no basis/NA
respondents. With smaller numbers of no basis/NA respondents, the effect on scores is
negligible and the importance of disclosure is diminished.

In addition, our work raises a concern about whether the leadership measure’s question
about how effectively immediate supervisors deal with equal employment opportunity
(EEO) and discrimination issues is providing useful information. This question has the
largest number of no basis/NA respondents among the 21 questions constituting the four
measures we reviewed. In addition, it is the primary reason for the change in the
leadership performance score since almost half of this question’s respondents answered
no basis/NA. According to GAO officials, the high number of no basis/NA respondents
most likely reflects the relatively few formal discrimination cases and the steps taken to
safeguard the private information related to these cases. GAO has recognized the need
for better information to monitor its progress in creating an inclusive culture that values
differences and consequently added three questions to its Employee Feedback Survey in
2008. These questions compose the Support for Diversity index developed by the
Partnership for Public Service. This index is part of their Best Places to Work in the
Federal Government ranking, which is used to evaluate employee satisfaction across the
federal government in 279 agencies and subcomponents, such as inspector general
offices. The agency’s top diversity officials and Chief Human Capital Officer said that
they believe the new survey questions could provide more useful information to the
leadership measures than the current EEO and discrimination question.

Reliability attribute. We found that the staff development measure could better meet
this attribute through more timely disclosures about changes made to the measure. GAO
published two annual performance reports for fiscal years 2006 and 2007 without
disclosing that it had changed this measure or describing limitations in the comparability

5
 GAO, Government Performance: Lessons Learned for the Next Administration on Using Performance
Information to Improve Results, GAO-08-1026T (Washington, D.C.: July 24, 2008); and Results-Oriented
Government: GPRA Has Established a Solid Foundation for Achieving Greater Results, GAO-04-38
(Washington, D.C.: Mar. 10, 2004).


Page 4                                           GAO/OIG-09-3 Four GAO Performance Measures
of the measure’s 5-year trend data resulting from these changes. The reliability attribute,
as defined by GAO, refers to a measure producing the same results under similar
conditions. We are reporting not that the data are not reliable, but rather that the agency
could better meet this attribute by more timely disclosure of changes to this measure.
After we brought this matter to responsible officials’ attention, the fiscal year 2008
Performance and Accountability Report was revised to clarify the measure had been
changed and that the 5-year trend data were not comparable. We identified that the
agency does not have written procedures to ensure that changes to measures and any
effects on comparability of performance data are disclosed in a timely manner. GAO’s
guidance for evaluating agency’s performance reporting states that when standard
operating procedures are not used, changes to measures that result in noncomparable
data can occur. 6

To improve GAO’s performance measures, this report recommends that GAO

•   consider adopting a more descriptive name, or revising the leadership measure to
    incorporate survey questions about team management, the Executive Committee, or
    both;

•   more fully disclose in tables in its annual performance report that the four measures’
    scores are calculated by excluding no basis/NA respondents and that this approach,
    when the number of these respondents are relatively large, has the effect of changing
    the scores for two measures;

•   determine for leadership measure whether the current EEO and discrimination
    question should be retained or if one or more of the survey’s three diversity and
    inclusiveness questions would provide more useful information; and

•   develop written procedures to ensure changes made to measures and any effects on
    the comparability of performance data are promptly reported.

Background

In its audit and evaluation work, GAO has reported that effective performance measures
                                                                                 7
can be a key tool in assessing how well an agency is managing its human capital.
Effective measures can provide practical information that alerts managers to the
existence of problems, helps managers take timely corrective action, and suggests
effective problem-solving approaches. GAO has also reported that to fully realize the
benefits of this tool, performance measures must be used by decision makers at all levels
and that improving the usefulness of performance information and measures is a key
practice in enhancing agency performance. In addition to its performance measures,
GAO has other information to identify areas for improving its human capital
management. For example, employee and management concerns about the agency’s

6
  GAO, The Results Act: An Evaluator’s Guide to Assessing Agency Annual Performance Plans,
GAO/GGD-10.1.20 (Washington, D.C.: April 1998).
7
  GAO-08-1026T.


Page 5                                          GAO/OIG-09-3 Four GAO Performance Measures
performance appraisal system have been obtained through the Employee Advisory
Committee, its annual customer satisfaction survey, International Federation of
Professional and Technical Employee Union representatives, its recent African-American
Performance Assessment Study, 8 and regular management meetings. Based on this
information, GAO is involved in a comprehensive review of its performance appraisal
system. In addition to the staff development performance measure, GAO collects and
analyzes direct participant feedback on the course materials and instructors for all
classes taught through GAO’s Learning Center (internal training).

One way that GAO measures how well it is doing and identifies areas for improvement is
through an annual Employee Feedback Survey. This Web-based survey is conducted by
an outside contractor to ensure respondent confidentiality and is administered to our
employees once a year. GAO developed the survey using a methodically rigorous
approach that included extensive focus groups and pretests to decrease survey errors.
The total survey consists of more than 100 questions and allows employees to indicate
what they think about the agency’s overall operations, work environment, and
organizational culture, as well as how they rate three levels of managers—their
immediate supervisor, team or unit managers, and the Executive Committee—on key
aspects of their leadership styles. 9

From the Employee Feedback Survey, GAO uses the responses to 21 questions to
provide the data for the four people measures we evaluated (see attachment 1). GAO
selected the subset of questions used for each measure based on senior management’s
judgment about the questions’ relevance to the measure and specialists’ knowledge
about the development of indexes. To establish scores for the measures, GAO uses the
responses of staff expressing opinions on the five-point scale for each measure’s
questions. The agency excludes the number of survey respondents who (1) leave the
question blank or check “no answer” and (2) check “no basis to judge/not applicable.”
For example, as shown in figure 1, the five-point scale generally consists of two
favorable responses, one neutral response, and two unfavorable responses. To compute
a score, GAO divides the total number of respondents who express a favorable response
                                                                                     10
by the total number of respondents who expressed an opinion on the five-point scale.
These scores are calculated agencywide and for each individual team or unit.




8
 Ivy Planning Group, African American Performance Assessment Study (Rockville, Md., April 2008).
9
 GAO’s Executive Committee is currently composed of the Acting Comptroller General, Chief
Administrative Officer/Chief Financial Officer, and Acting General Counsel.
10
   GAO characterizes favorable responses to survey questions in four ways (1) “strongly agree” or “generally
agree”; (2)“very positive impact” or “generally positive impact”; (3) “always or almost always” or “most of
the time”; and (4)“very greatly useful and relevant,” “greatly useful and relevant,” or “moderately useful
and relevant.”


Page 6                                             GAO/OIG-09-3 Four GAO Performance Measures
Figure 1: Example of Response Options to GAO’s Employee Survey Staff Utilization Question




Source: GAO.




GAO Measures Met Many Attributes of Successful Performance Measures

Our evaluation showed that the staff development, staff utilization, leadership, and
organizational climate people measures were accurately calculated according to GAO’s
established methodology and that these measures met many of the nine attributes of
successful performance measures. For example, as summarized in table 2, staff
utilization and organizational climate met all nine attributes.

Table 2: Inspector General Analysis of Attributes of Successful Performance Measures for Four
GAO People Measures

                                                                        Measure
    Attribute                                Staff           Staff                        Organizational
                                          development     utilization        Leadership      climate
    1. Linkage                                9               9                  9              9
    2. Clarity                                9               9                                 9
    3. Measurable target                      9               9                   9             9
    4. Objectivity                                            9                                 9
    5. Reliability                                            9                   9             9
    6. Core program activities                9               9                   9             9
    7. Limited overlap                        9               9                   9             9
    8. Balance                                9               9                   9             9
    9. Governmentwide
       priorities                             9               9                   9             9
9= indicates measure met attribute.

Source: IG analysis of GAO information.



Table 2 also shows that all four measures met the following attributes: linkage,
measurable target, core program activities, limited overlap, balance, and
governmentwide priority.

•     Linkage. We determined the measures met the linkage attribute because they align
      with GAO’s strategic goal of being a model federal agency and its objective of
      becoming a professional service employer of choice. Also at the team or unit level,
      we identified a clear linkage between the team’s scores on the four measures and
      efforts to improve their operations and the day-to-day activities of staff. Specifically,
      after reviewing their scores, managing directors used focus groups and other efforts


Page 7                                                  GAO/OIG-09-3 Four GAO Performance Measures
    to better understand their scores and take corrective actions. For example, to
    improve staff development scores, one team developed a separate survey to obtain
    more specific information on employee dissatisfaction with external training–the
    focus of one of the survey questions for this measure. Based on the results of this
    survey, the team made changes to better inform staff of external training
    opportunities.

•   Measurable target. GAO sets a quantifiable, numerical target for each measure.
    Performance data for each measure are reported as both a current year target and
    actual results. For example, for fiscal year 2007, the target for staff development was
    a 75 percent favorable response rate and the actual result was 76 percent.
    Quantifiable measures make it easier for managers to compare actual results to
    expected performance.

•   Core program activities. The measures generally cover the activities needed to
    provide managers with useful information and the survey questions constituting the
    measures can be considered significant core activities, given GAO’s mission.

•   Limited overlap. Our work found that each measure provides distinct information
    beyond that given by other measures. Specifically, a selected number of employee
    satisfaction survey questions are used to develop each measure. Questions for one
    measure do not overlap with questions from another measure.

•   Balance. We found that the four measures are part of a balanced suite of
    performance measures. In addition to the four people measures we reviewed, GAO
    has measures to assess the benefits resulting from its work, client satisfaction (i.e.,
    Congress), and the effectiveness of internal administration services.

•   Governmentwide priority. These four measures focus on GAO’s human capital
    management challenge, which is also a governmentwide concern: ensuring the
    federal government has a highly skilled and knowledgeable workforce for the 21st
    century.

Leadership Measure Could Better Meet the Clarity Attribute

We determined that the leadership measure does not fully meet the clarity attribute
because the measure does not capture information about the strategic leadership of
GAO. As defined by GAO, a successful performance measure has clarity when its name
and definition are consistent with the methodology used to calculate it. In designing its
Employee Feedback Survey, the agency recognized that leadership encompasses three
different management levels—immediate supervisor, team management, and the
Executive Committee. Currently, the leadership measure is based on survey responses to
questions about immediate supervisors and not the strategic leadership that sets agency
policies, priorities, and goals. The measure does capture information about Executive
Committee and team managers but only in their role as immediate supervisors. Most
immediate supervisors are not in these two management levels.



Page 8                                       GAO/OIG-09-3 Four GAO Performance Measures
Similarly, in evaluating employee satisfaction across federal agencies, the Partnership for
Public Service in its Best Places to Work in the Federal Government also recognizes
different levels of leadership, in particular senior leaders and supervisors. In conjunction
with American University’s Institute for the Study of Public Policy Implementation, the
partnership uses data from the Office of Personnel Management’s Federal Human Capital
        11
Survey to produce detailed rankings of employee satisfaction for best places to work
and 10 workplace environment (“best in class”) categories such as effective leadership.
The rankings are designed to inform a broad audience of job seekers, researchers,
federal employees, and government leaders. In its 2009 rankings, the Partnership for
Public Service also assessed which factors shape employees’ views of their leadership
and found that, while conventional wisdom holds that the greatest influence on
employee’s satisfaction is their immediate supervisor, it is actually the quality of an
agency’s senior leadership that has the greatest bearing on employees’ job satisfaction.
In addition, GAO’s Chief Human Capital Officer stated including senior leadership as part
of a leadership performance measure is a common public and private sector practice.

To better meet the clarity attribute, the agency has several options. It could adopt a more
descriptive name that reflects the measure is based on opinions about immediate
supervisors. For example, the Partnership for Public Service has two indices, Effective
Leadership–Senior Leaders and Effective Leadership–Supervisors Another option would
be to revise the measure to include employee survey results regarding GAO’s Executive
Committee, team management leadership, or both. To make such revisions, GAO would
need to consider that all 10 survey questions constituting this measure are asked of both
immediate supervisors and team management, while only 7 of these 10 questions are
currently asked about the Executive Committee. Three of the 10 questions were
dropped because they had large percentages of staff responding that they had no basis to
judge for these questions. The dropped questions asked whether the Executive
Committee (1) gave the employee the opportunity to do what he/she does best, (2) made
decisions in a timely manner, and (3) dealt effectively with EEO and discrimination
issues.

Additional Disclosure Would Help Two Measures Better Meet the Objectivity
Attribute

Our work showed that the staff development and leadership measures could better meet
the objectivity attribute with more disclosure that would allow a more complete
interpretation of these performance scores. Specifically, the agency could be more
transparent in reporting that these scores are based only on survey respondents who
answered the 5-point scale and that this choice of not including no basis/NA respondents
has the effect of changing the scores by 6 percentage points or more. In addition, our
work showed that management attention is needed to determine if the leadership
measure’s EEO and discrimination question is providing useful information.




11
     http://www.fhcs.opm.gov.


Page 9                                     GAO/OIG-09-3 Four GAO Performance Measures
More Disclosure Is Needed to Interpret Performance Scores for Two Measures

For transparency and a complete interpretation of scores, GAO survey design
methodologists and an external performance measurement expert who provided us
technical advice told us that, at a minimum, the agency should disclose any significant
effects associated with its approach for calculating performance scores. Because scores
can be calculated either by consistently including or excluding no basis/NA respondents,
our advisers said the approach taken and any related effects should be disclosed. For
example, as the number of no basis/NA respondents increase the two approaches can
result in different scores. In its annual performance reports GAO has publicly disclosed
that it excludes no basis/NA respondents when calculating performance scores in the
report’s detailed description of these measures, but not in the report’s tables presenting
the performance scores. At the same time, the agency has not disclosed anywhere in its
annual performance reports that its approach of excluding no basis/NA respondents has
the effect of changing the scores for these two measures. If the number of no basis/NA
respondents is relatively large, disclosing such information in table notes is important so
that the tables if removed and used in other publications provide complete information.
For example, GAO used these tables to report on its performance in its annual
testimonies before its appropriations subcommittees. By making such disclosures,
greater transparency and a more complete interpretation of scores would be possible.

The agency’s approach of not including no basis/NA respondents has the effect of
changing performance scores for the staff development and leadership measures by 13
percentage points and 6 percentage points, respectively.To illustrate how these scores
may be misinterpreted, for fiscal year 2007, GAO reported a satisfaction score of 76
percent for the staff development measure, which could be misinterpreted as 76 percent
of all surveyed employees were satisfied. Instead, the score reflects (1) 63 percent of
respondents to the measures’ questions answered they were satisfied on the 5-point scale
and (2) the number of no basis/NA respondents for the measure’s three questions (12
percent for two questions and 28 percent for a third). For fiscal year 2008, the percentage
of no basis/NA respondents for these questions remained the same or increased by about
2 percentage points.

Similarly, for the leadership measure in fiscal year 2007, GAO reported a satisfaction
score of 79 percent. This score reflects that 73 percent of surveyed employees who
answered on the 5-point scale were satisfied. The difference in the percentages is
primarily caused by excluding 45 percent of respondents who answered no basis/NA to
                                                                                   12
one of the measure’s 10 questions, which is about EEO and discrimination issues. For
fiscal year 2008, the percentage of no basis/NA respondents for this question increased to
49 percent.




12
 The difference is also due to the percentage of no basis/NA respondents—7 percent to 10 percent—for 3
other questions that are part of this measure.


Page 10                                           GAO/OIG-09-3 Four GAO Performance Measures
Leadership Measure’s EEO and Discrimination Question Warrants Further Management
Attention

Our work raises a concern about whether the leadership measure’s EEO and
discrimination question is obtaining useful employee feedback and should be retained as
part of the measure. This question’s narrow focus on EEO legal issues is responsible for
almost half of the respondents answering no basis/NA, according to agency officials.
They explained that since GAO has so few formal discrimination cases and takes steps to
keep information related to these cases confidential, many employees do not have direct
knowledge about how supervisors and/or managers deal with such issues.

While we could not find any guidance that specifically addressed acceptable no basis/NA
response rates for survey data that are used to establish performance scores, we did
identify GAO guidance that response rates of at least 70 percent are acceptable when
                                                                                13
individual questions (survey items) are expected to be key to a report message. While
no basis/NA respondents are not item nonrespondents, GAO survey design
methodologists we consulted said GAO’s guidance for item nonresponse could
reasonably serve as criteria for no basis/NA respondents. As a result, we believe GAO
management should reconsider whether the EEO and discrimination question should
continue to be used in its leadership measure since almost half of the respondents
answered no basis/NA—which falls well below the 70 percent response rate. In addition,
removing this question from the leadership measure would reduce (1) the impact on the
performance score caused by excluding no basis/NA respondents in its calculations and
(2) the likelihood for misinterpretation of this score.

One alternative would be to substitute one or more of the recently added diversity and
inclusiveness questions for the question on EEO and discrimination issues. Recognizing
the need for additional information on diversity and inclusiveness, GAO in 2008 added
the three questions to its Employee Feedback Survey that constitute the Support for
Diversity index developed by the Partnership for Public Service as part of its Best Places
to Work in the Federal Government ranking. The questions are:

     •   Supervisors/team leaders in my work unit are committed to a workforce
         representative of all segments of society.

     •   Policies and programs promote diversity in the workplace (for example,
         recruiting minorities and women, training in awareness of diversity issues,
         mentoring).

     •   Managers/supervisors/team leaders work well with employees of different
         backgrounds.

According to knowledgeable staff, these questions were selected to enable GAO to
benchmark its results with federal governmentwide survey data and address a
13
 GAO, Calculating and Reporting Response Rates and Addressing Nonresponse Issues (Washington,
D.C.: Dec. 10, 2003).


Page 11                                        GAO/OIG-09-3 Four GAO Performance Measures
recommendation from the African-American Performance Assessment Study. The
recommendation suggested that the agency use the Employee Feedback Survey to
monitor the extent to which employees believe GAO has an inclusive culture that values
differences.

These new questions may provide more useful information than the current question and
more staff should be able to respond. GAO’s Special Assistant to the Comptroller
General for Diversity and the Acting Managing Director of GAO’s Office of Opportunity
and Inclusiveness stated the new questions should offer more useful data since they
directly address how supervisors and other managers support creating an inclusive and
diverse culture and most staff should have direct knowledge and experiences that will
enable them to provide an answer. For example, in the fiscal year 2008 survey between
10 percent and 16 percent of respondents answered “do not know” in response to the
new questions while 49 percent of respondents answered no basis/NA to the EEO and
discrimination question. In addition, GAO’s Chief Human Capital Officer also thought the
new questions would provide more useful information than the current EEO question.

Written Procedures Would Help Ensure Full and Timely Disclosure about
Changes to Performance Measures

After making changes to its staff development measure in fiscal year 2006, GAO
published two annual performance reports that did not disclose that this measure had
changed. GAO’s detailed description of the measure did describe the revised questions
and responses but not that they had changed from the prior year. The agency also did not
disclose limitations in the comparability of the measure’s 5-year trend data resulting
from these changes. As a result, there was no way to discern that the measure had been
changed. In October 2008, after we notified GAO management of this issue, the agency
reported changing this performance measure in its fiscal year 2008 Performance and
                        14
Accountability Report and disclosed that the staff development performance data for
fiscal years 2004 and 2005 are not comparable with the data for fiscal years 2006 to 2008.

In fiscal year 2006, GAO made two changes to the staff development measure. Originally,
the measure was composed of responses to four questions about internal training,
computer-based training, external training, and on-the-job training. The first change, as
shown in table 3, was to revise the responses to the internal training question from two
to three favorable responses. 15 According to agency officials, GAO’s Chief Learning
Officer proposed this change because she believed the revision would better capture
staff satisfaction with internal training, which was undergoing significant changes. The
second change was to drop the computer-based training question because this training
was a significant part of (and therefore included in) the measure’s other questions.




14
   GAO, Performance and Accountability Report: Fiscal Year 2008, GAO-09-1SP (Washington, D.C.:
Nov. 15, 2008).
15
   GAO’s other 20 people measure survey questions have two favorable responses.


Page 12                                          GAO/OIG-09-3 Four GAO Performance Measures
Table 3: Changes in Staff Development—Internal Training Question’s Five-Point Response Scale

Original response scale
Very positive                 Generally      Neither         Generally     Very negative
impact                        positive       positive nor    negative      impact
                              impact         negative        impact
                                             impact
Revised response scale
Very greatly                  Greatly        Moderately      Somewhat      Little or not
useful and                    useful and     useful and      useful and    useful and
relevant                      relevant       relevant        relevant      relevant

Source: IG analysis of GAO information.
Note: Favorable responses are highlighted.


One cause for the delayed disclosures may be that the agency’s Office of Quality and
Continuous Improvement does not have written procedures to ensure changes to
performance measures and their effects to data comparability are disclosed in a timely
manner. GAO’s guidance for evaluating agency’s performance reporting states that when
standard operating procedures are not used, changes to measures can occur that result
                         16
in noncomparable data. Further, GAO’s Standards for Internal Control in the Federal
Government states that management is responsible for developing detailed procedures
to ensure that they become an integral part of the agency’s operations. The standards
also state that such internal controls should be clearly documented, and the
documentation should be readily available for examination. 17

Conclusions

GAO has taken significant steps in developing effective human capital performance
measures and monitoring its human capital management activities, such as developing
and implementing an annual Employee Feedback Survey. Consequently, two of the four
measures met all of the agency’s attributes for successful performance measures, and
two other measures met most attributes. We believe that adding greater clarity and
transparency to the leadership and staff development measures and improving the
processes for making changes to GAO’s performance measures would help avoid
misinterpretations of data and further strengthen these measures’ usefulness.




16
 GAO/GGD-10.1.20.
17
 GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (Washington,
D.C.: November 1999).


Page 13                                                     GAO/OIG-09-3 Four GAO Performance Measures
Recommendations for Executive Action

To improve the performance measures GAO uses to address its human capital
management challenge and the processes for developing these measures, we recommend
that the Acting Comptroller General take the following four actions:

•   To help the leadership measure fully meet the clarity attribute, adopt a more
    descriptive name that better aligns with its focus on immediate supervisors or
    incorporate into the measure, additional employee survey questions about team
    management, the Executive Committee leadership, or both.

•   To help the staff development and leadership performance measures fully meet the
    objectivity attribute,

    •   disclose in tables presenting performance scores that the four measures’ scores
        are calculated by excluding no basis/NA respondents and that this approach,
        when the number of these respondents are relatively large, has the effect of
        changing the scores for two measures, and

    •   determine for leadership measure whether the current EEO and discrimination
        question should be retained or if one or more of the survey’s three diversity and
        inclusiveness questions would provide more useful information to gauge the
        agency’s progress in creating a more diverse work environment.

•   To help ensure the reliability attribute is fully met when performance measures are
    changed, direct the Managing Director, Office of Quality and Continuous
    Improvement, to develop written procedures to ensure that such changes and any
    effects on comparability of performance data are fully disclosed in a timely manner.

Agency Comments

The Inspector General provided GAO with a draft of this report for review and comment.
GAO generally agreed with our recommendations. The agency also provided technical
comments that we incorporated, as appropriate. GAO’s written comments are
reproduced in attachment 2.

If you or your staff have any questions about this report, please contact me at (202) 512-
5748 or garciaf@gao.gov. OIG staff who made significant contributions to this report are
Cathy Helm (Deputy Inspector General), Gwendolyn Jaffe, and Kurt Kershow.

Attachments - 3




Page 14                                      GAO/OIG-09-3 Four GAO Performance Measures
Attachment I


          Four People Performance Measures That GAO Uses to Assess Its
                           Human Capital Management


Following are the four people performance measures—organizational climate, staff
development, staff utilization, and leadership—that GAO uses to assess its human capital
management. Each measure includes selected questions and possible responses taken
from GAO’s Employee Feedback Survey.


1. Organizational Climate

Thinking back over the last 12 months, how strongly do you agree or disagree with
each of the following statements?
   1. A spirit of cooperation and teamwork exists in my work unit.
   2. I am treated fairly and with respect in my work unit.
   3. My morale is good.
   4. Sufficient effort is made in my work unit to get the opinions and thinking of
      people who work here.
   5. Overall, I am satisfied with my job at GAO.

2. Staff Development

How much positive or negative impact did the following developmental activities have
on your ability to do your job during the last 12 months?
   1. External training/conferences.
   2. On-the-job training that I received.
   3. Internal (Learning Center) training courses.

3. Staff Utilization

   During the last 12 months, how often did each of the following occur?
   1. My job made good use of my skills and abilities.
   2. GAO provided me with opportunities to do challenging work.
   3. In general, I was utilized effectively.




Page 15                                      GAO/OIG-09-3 Four GAO Performance Measures
Attachment I

4. Leadership

In your opinion, how often was each of the following behaviors or attributes exhibited
by your immediate supervisor during the last 12 months?
   1. Gave me the opportunity to do what I do best.
   2. Treated me fairly.
   3. Acted with honesty and integrity toward me.
   4. Ensured that there was a clear link between my performance and recognition of
      it.
   5. Gave me the sense that my work is valued.
   6. Provided me meaningful incentives for high performance.
   7. Made decisions in a timely manner.
   8. Demonstrated GAO’s core values of accountability, integrity, and reliability.
   9. Implemented change effectively.
   10. Dealt effectively with equal employment opportunity and discrimination issues
       (e.g., ensures zero tolerance for discrimination).




Page 16                                    GAO/OIG-09-3 Four GAO Performance Measures
Attachment II


   Comments from the Office of the Comptroller General of the United States




Page 17                              GAO/OIG-09-3 Four GAO Performance Measures
                             Related GAO Products

      Government Performance: Lessons Learned for the Next Administration on
      Using Performance Information to Improve Results. GAO-08-1026T. Washington,
      D.C.: July 24, 2008.

      Managing for Results: Enhancing Agency Use of Performance Information for
      Management Decision Making. GAO-05-927. Washington, D.C.: September 9,
      2005.

      Results-Oriented Government: GPRA Has Established a Solid Foundation for
      Achieving Greater Results. GAO-04-38. Washington, D.C.: March 10, 2004.

      Tax Administration: IRS Needs to Further Refine Its Tax Filing Season
      Performance Measures. GAO-03-143. Washington, D.C.: November 22, 2002.

      The Results Act: An Evaluator’s Guide to Assessing Agency Annual Performance
      Plans. GAO/GGD-10.1.20. Washington, D.C.: April 1998.




(998267)


Page 18                                GAO/OIG-09-3 Four GAO Performance Measures
                          To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,          the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist, available 24
GAO’s Internal            hours a day, 7 days a week.
Operations
                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202) 512-8361.

                      •   Write to:
                          GAO Office of Inspector General
                          441 G Street NW, Room 1808
                          Washington, DC 20548


                          To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of       www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony




                          This is a work of the U.S. government and is not subject to copyright protection in the
                          United States. The published product may be reproduced and distributed in its entirety
                          without further permission from GAO. However, because this work may contain
                          copyrighted images or other material, permission from the copyright holder may be
                          necessary if you wish to reproduce this material separately.
